OIG Audit Report GR-90-09-005

Compliance with Standards Governing Combined DNA Index System Activities at the Washington State Patrol Crime Laboratory, Seattle, Washington
Audit Report GR-90-09-005
May 2009
Office of the Inspector General


Executive Summary


The Audit Division, Office of the Inspector General has  completed an audit of the Washington State Patrol Crime Laboratory’s (WSPCL) compliance with standards  governing the Combined DNA Index System (CODIS).  The Federal Bureau of Investigation’s (FBI)  CODIS program blends forensic science and computer technology to provide an  investigative tool to federal, state, and local crime  laboratories in the United States,  as well as those from select international law enforcement agencies.  The  CODIS program allows laboratories to electronically compare and match DNA  profiles in order to assist law enforcement in solving crimes and identifying missing or unidentified persons.1  The FBI’s CODIS Unit manages CODIS and is  responsible for developing, providing, and supporting the program to foster the  exchange and comparison of forensic DNA evidence. 
The FBI  implemented CODIS as a distributed database with hierarchical levels that  enable federal, state, and local crime laboratories to compare DNA profiles  electronically.  The hierarchy consists  of three distinct levels that flow upward from the local level to the state  level and then, if allowable, the national level.  The National  DNA Index System (NDIS) is managed by the FBI as the nation’s DNA  database containing DNA profiles uploaded by law enforcement agencies across  the United     States.  NDIS is the highest level in the CODIS  hierarchy and enables the laboratories participating in the CODIS program to  electronically compare DNA profiles on a national level.  The State DNA Index System (SDIS) is used at  the state level to serve as a state’s DNA database containing DNA profiles from  local laboratories and state offenders.   The Local DNA Index System (LDIS) is used by local laboratories. 
The  objectives of our audit were to determine if the:  (1) Laboratory was in compliance with  the NDIS participation requirements; (2) Laboratory was in compliance with  the Quality Assurance Standards (QAS) issued by the FBI; and  (3) Laboratory’s forensic DNA profiles in CODIS databases were complete, accurate,  and allowable for inclusion in NDIS.
We determined that the Laboratory  was generally in compliance with those standards governing CODIS activities  that we reviewed.  Specifically, we found  that the WSPCL complied with the Quality Assurance Standards for the areas we  tested.  However, we noted two exceptions  during our review, as follows:

The WSPCL did not adequately secure CODIS servers to prevent unauthorized  personnel from gaining access to the computer equipment and stored data.
Of the 100 forensic DNA profiles we sampled, 6  were unallowable and 1 was incomplete according to NDIS participation  requirements.  The WSPCL removed all of  these profiles from NDIS.

As a result of our audit, we made two  recommendations to ensure the Laboratory’s compliance with standards governing  CODIS activities, which are discussed in detail in the Findings and  Recommendations section of the report.   Our audit scope and methodology are detailed in Appendix I of the report  and the audit criteria are described in Appendix II. 
We discuss these matters in the  Findings and Recommendations Section of the report.  Additionally, we  discussed the results of our audit with Laboratory officials and have included  their comments in the report, as applicable.  In addition, we requested  written responses to our draft report from the Laboratory and the FBI, which  are included in Appendices III and IV, respectively. Our audit objective, scope and methodology  appear in Appendix II of this report.


 

Footnotes

DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells  that contains encoded information necessary for building and maintaining  life.  Approximately 99.9-percent of  human DNA is the same for all people.   The differences found in the remaining 0.1-percent allow scientists to  develop a unique set of DNA identification characteristics (a DNA profile) for  an individual by analyzing a specimen containing DNA.





 




Return to OIG Home Page